U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Charleston Pierre Wiggins v. United States of America,
S.Ct. No. 20-8020

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 3, 2021,
and placed on the docket on May 13, 2021. The government’s response is due on June 14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8020
WIGGINS, CHARLESTON PIERRE
USA

RICHARD MICHAEL SUMMA
FEDERAL PUBLIC DEFENDER, NORTHERN
DISTRICT OF FLORIDA
227 N. BRONOUGH STREET
STE. 4200
TALLAHASSEE, FL 32301-1300
850-942-8818
RICHARD_SUMMA@FD.ORG

